NATIONAL RAILROAD PASSENGER CORPORATION
                        Office of the Inspector General




                                                OCTOBER 1, 2006 – MARCH 31, 2007


                                   Semiannual Report
                                         to Congress
Cover Photo: Amtrak Empire Builder
NATIONAL RAILROAD PASSENGER CORPORATION

                              Office of the Inspector General




                                                    Semiannual Report
                                                          to Congress




                                                                                   REPORT NO. 35
                                                                OCTOBER 1, 2006 – MARCH 31, 2007
                                                   NATIONAL RAILROAD PASSENGER CORPORATION
                                                        Office of the Inspector General, 10 G Street, NE, 3W-300, Washington, DC 20002-4285




April 30, 2007

Honorable David Laney
Chairman
Amtrak Board of Directors

Dear Mr. Chairman:

This Semiannual Report, submitted pursuant to the Inspector General Act, summarizes the more signifi-
cant audits, evaluations, and investigations for the six-month period ending March 31, 2007.

The OIG issued 15 audit reports in the last two quarters, including performing oversight work for the
company’s audited financial statements, and performing a review of Amtrak’s capital budgeting
processes. We have recommended that Amtrak make some changes to its current business processes to
document better its “state-of-good-repair” program for infrastructure and equipment. We are working
closely and cooperatively with management to improve the financial bases and justifications for all
capital budget requests. Our auditors are also working closely with Amtrak’s Information Technology
department to develop a comprehensive plan for a new ‘enterprise architecture’ that will better serve
Amtrak’s future business needs.

Our investigators and special agents opened 79 new cases in the past six months and closed 107 cases;
289 investigations remain active as of March 31. We have eight civil and criminal referrals pending with
federal prosecutors. We concluded two joint investigations with the Federal Bureau of Investigation and
the General Services Administration that involved bribery in a construction project and credit card fraud.
We also were successful in recommending several administrative actions involving employee theft and
embezzlement cases.

For the past eighteen months, the OIG has been heavily engaged in evaluating Amtrak’s maintenance
activities, with a desire to identify areas for new maintenance approaches, including examining the poten-
tial for implementing condition-based rather than time-based maintenance, rationalizing and making
better use of facilities and personnel, and ultimately improving Amtrak’s overall fleet availability and reli-
ability. We continue to work with Amtrak’s Chief Operating Officer (COO) to evaluate implementation
of the Reliability-Centered Maintenance (RCM) program for Acela. The company’s goal is to increase
fleet availability by placing two additional train sets (#16 and #17) into revenue service by the end of the
fiscal year. Additionally, the OIG is working closely with the COO to facilitate the introduction of RCM
into the conventional fleet; a separate briefing on full RCM implementation will be provide to the Board,
including a fully resource loaded schedule and timeline for implementation.
Honorable David Laney
April 30, 2007
Page 2




With regard to other OIG work involving Amtrak’s mechanical maintenance operations, the OIG has
been examining the potential for improving the ‘cycle time’ required for equipment to be serviced.
Following a pilot program at the Washington, DC’s Ivy City yards, the OIG authorized an expansion of
the cycle time reviews to Chicago’s maintenance operations. The OIG is also transferring this work to
the COO as the pilot is expanding into more of the conventional fleet and will become programmatic.

On three occasions, I appeared before two House Committees to comment on the OIG’s oversight of
security operations at Amtrak. These appearances were intended to support Amtrak’s inclusion into two
House-sponsored bills calling for increased security spending for rail passenger operations. In the past
three years, Amtrak has been authorized to receive only $23 million in security funding through DHS
grants. It is expected that as much as $100+ million will now be made available to Amtrak through
pending legislation. The OIG has been working with Amtrak management to facilitate a consolidated
security bill by the end of the fiscal year.

We are continuing our evaluations of Amtrak’s security needs at several major stations. Using non-
Amtrak funding, the OIG obtained digital mapping of three California stations during the past six months.
The digital mapping services are identical to those provided at Washington Union Station and are designed
to provide Amtrak, law enforcement, and first responders with highly detailed, site specific data to better
prepare for emergency response to security and special events at these locations. The digital mapping is
being used to complement other vulnerability assessments being conducted by Lawrence Livermore
National Laboratories (LLNL). LLNL has provided assessments of Washington Union Station and parts
of New York Penn Station. Preliminary assessment work is planned for Chicago in the next quarter.

A major concern for the OIG (with regard to security evaluations and implementation of ‘best practices’)
is the absence of rail and transit standards. At the request of the American Public Transit Association,
OIG staff has joined the Security Standards Committee to help draft protocols that will lay the founda-
tions for many of the transit security standards. We believe this approach will allow for a consistent
approach to infrastructure protection for those shared Amtrak-transit properties.

I appreciate the Board’s support of the OIG’s oversight efforts. We look forward to finding ways through
which the OIG can add value to Amtrak’s bottom line.

Respectfully,



Fred E. Weiderhold, Jr.
Inspector General
                                                                                                   Table of Contents
Inspector General Viewpoint                                                                   Office of Inspections and Evaluations
Mid-Year Financial Results and Performance . . . . . . . . . . . . 1                          Significant Inspections and Evaluations . . . . . . . . . . . . . . . . 14
Amtrak FY08 Grant and Legislative Request . . . . . . . . . . . . 1
Pending Reauthorization Legislation . . . . . . . . . . . . . . . . . . . 2
Ongoing Safety and Security Concerns . . . . . . . . . . . . . . . . . 2
                                                                                              Office of Counter-Terrorism
Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3   and Intelligence
                                                                                              Significant Counter Terrorism and Intelligence Efforts . . . . 16

Amtrak Profile
OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4   Other OIG Activities
                                                                                              Coordination with Independent Public Accountants . . . . . . 17

Office of Audits                                                                              Teammate Implementation . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                                                                                              Amtrak IT Challenges and Group Analysis . . . . . . . . . . . . . 17
Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Unresolved Audit Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Management Responses Over Six Months Old for                                                  Appendices
Which Corrective Action Has Not Been Completed . . . . . . . 7                                1. Audit Reports Issued with Questioned Costs . . . . . . . . . 20
Audit Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8    2. Audit Reports Issued with Funds
                                                                                                 to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . 21

Office of Investigations                                                                      3. Detailed Listing of All Issued Audit Reports . . . . . . . . . 22
                                                                                              4. Summary of Reports to President of Amtrak
Case Status of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . .9               Concerning Information or Assistance
Case Handling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9        Unreasonably Refused or Not Provided . . . . . . . . . . . . . 23
Sources of Allegations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9          5. Review of Legislation and Regulations . . . . . . . . . . . . . 24
Hotline Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9    6. Glossary of Audit Terms and Abbreviations . . . . . . . . . 25
Significant Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Misuse of Company Assets . . . . . . . . . . . . . . . . . . . . . . . . . 10
Efficiency and Effectiveness . . . . . . . . . . . . . . . . . . . . . . . . 10
                                                                                              Reporting Requirements Index
                                                                                              Reporting Requirements Index . . . . . . . . . . . . . . . . . . . . . . . 26
Conflict of Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Time and Attendance Review . . . . . . . . . . . . . . . . . . . . . . . . 11
Classification of Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Joint Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Revenue Protection Unit . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Prosecutive Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                                      Inspector General Viewpoint
FY 2007 MID-YEAR FINANCIAL
RESULTS & PERFORMANCE
Amtrak completed the first two quarters of the fiscal year with
$1.018 billion in total revenue, and total expenses were $1.225
billion. Amtrak’s financial results YTD are $98.8 million favor-
able to budget, and $48.3 million favorable to last year.
Amtrak’s revenue performance is a positive sign, with ticket
revenue up $26.1 million, primarily due to the very strong
performance of the Acela services, where ridership and revenue
are up 14% and 16% respectively. Expenses were favorable
mostly due to lower salary, wages, and benefit expenses favor-
able by $62.1 million. Both Amtrak’s Northeast Corridor
services and long-distance services yielded results better than      Coast Starlight | North of Santa Barbara, CA
budget, with some lower than expected results from Amtrak’s
state corridor services.
                                                                     ering more effective long-distance rail operations; positioning
Capital investments were $279.1 million YTD, $13.7 million           for corridor development; making improvements in mechanical
below forecasted spending (reflecting a budget reset). Amtrak        operations; implementing a new information technology archi-
will be entering its main work season for capital work during the    tecture; and completing labor negotiations. Within this report,
next two quarters.                                                   we comment on several of these initiatives, and we agree with
                                                                     management that renewed focus and attention in these areas will
The OIG has encouraged the use of more traditional transporta-
                                                                     yield real dividends.
tion metrics for reporting financial and operating results; Amtrak
posts Monthly Performance reports on its commercial web site.        In FY08, Amtrak is requesting $485 million in operating
Among the more important metrics, ticket yield YTD rose from         support, $760 million for capital support, and $285 million for
26.13 cents to 27.82 cents, year over year. Amtrak’s operating       debt service. With respect to the operating support request, we
ratio improved from 1.60 to 1.46, year over year. And, Amtrak’s      are pleased to see Amtrak keep its operating subsidy levels
overall cost recovery ratio also improved from .63 to .69. We        trending downward. We would also comment that making this
generally view these positive results as important trend indica-     request Amtrak indicates it will offset $92 million in increased
tors, and we comment on these trends elsewhere in this               healthcare expenses, and $71 million in other inflation increases.
Semiannual Report.
                                                                     Amtrak will have to assume some business risks in requesting a
                                                                     reduced operating subsidy next year. In their second quarter
AMTRAK’S FY08 GRANT &                                                assessment of Amtrak’s FY07 operational reforms and YTD

LEGISLATIVE REQUEST                                                  financial performance, the DOT Inspector General reports that
                                                                     Amtrak is likely to realize only $39 million of the planned $61
On February 15, 2007, Amtrak’s CEO Alex Kummant submitted            million in its proposed FY07 reform savings. The challenge for
the corporation’s FY08 Budget & Legislative Request, pursuant        Amtrak will be to find other savings in its operating expense
to Section 24315 (b), Title 49 USC. The full text of the corre-      budget that will offset the reduced savings from earlier initia-
spondence may be found at www.amtrak.com at the “Inside              tives; we think this is possible if Amtrak takes on the task.
Amtrak” section.
                                                                     The Amtrak OIG recommends that Amtrak revise its strategic
In its budget submission, Amtrak comments on the recent              reform initiatives to reflect better, and more accurately, its recent
successes the company has enjoyed in achieving some modest           experiences in attempting to implement last year’s plan. This
expense reductions and in a better-than-expected performance in      means that the base line for the planned savings be reset, and
revenue and ridership results.                                       other initiatives, especially those associated with maintenance
                                                                     operations, should be updated. For example, we believe that
Amtrak indicates in its submission that it will focus its opera-
                                                                     Amtrak has understated the potential benefits arising from the
tional improvements in FY07 and into FY08 in seven critical
                                                                     reliability-centered maintenance project.
areas: investing in security; ridership and revenue growth; deliv-

                                                                                                               Inspector General Viewpoint   1
                                                                        expansion; establishing financial management and accounting
                                                                        reforms; setting out new performance metrics for long-distance
                                                                        train services; authorizing unprecedented amounts for security
                                                                        funding; and continuing paying down of Amtrak’s debt.
                                                                        Section 302 of the draft bill allows that each state prepare and
                                                                        maintain a state rail plan that will establish the authority and
                                                                        criteria for submitting eligible plans to the Secretary of
                                                                        Transportation for consideration for a long range rail investment.
                                                                        The OIG believes that these state rail authorities, and subsequent
                                                                        plans, will be critical to the success of both intra-state, as well as
                                                                        interstate, rail passenger service growth, and we encourage
Adirondack | Lake Champlain, NY
                                                                        Amtrak management to position itself to take full advantage of
                                                                        this legislative opportunity.
Amtrak’s $760 million for capital funding is considerably more
                                                                        Within S. 294, Congress also is calling for changes with respect
than its projected FY07 actual spend rate. We understand the
                                                                        to how Amtrak plans to achieve a ‘state of good repair’ by FY
need to invest in several ‘mega-projects’ where infrastructure
                                                                        2012. Congress will require that a comprehensive capital spend
repairs are critical, on projects like the Thames River bridge in
                                                                        plan be submitted to the Secretary of Transportation for review
Connecticut and the tunnel work included in New York’s Fire &
                                                                        and approval. The OIG is working with the Board and manage-
Life Safety Project. For much of the capital program, however,
                                                                        ment to re-work the current capital planning, budgeting, and
we want to see Amtrak better delineate the specific results from
                                                                        spending processes to link capital projects to the company’s
these investments and, where feasible, lay out a more rigorous
                                                                        strategic plans and to the goals, objectives, and outcomes antici-
analysis of return on capital invested. For example, Amtrak can
                                                                        pated in the company’s strategic plans.
prescribe a level of utility (class of track to permit high-speed
operations) for all sections of the Northeast Corridor track infra-     Section 210 of S. 294 calls for a re-appraisal of all long-distance
structure. Amtrak can categorize the incremental costs for              routes, including possible route restructuring. One of the more
maintaining track at Class 7 (MPH) or Class 8 (MPH), and can            discussed areas of Amtrak’s operations is the operation of its
tie revenue projections to scheduled performance. Other efforts         long distance train services. There have been many studies
can be oriented to the ‘mega-projects’ of major bridge and tunnel       conducted since Amtrak’s inception that attempt to describe,
work, e.g. - to keep the useful life of an asset within 90 percent of   rank order, and make recommendations to restructure the
its expected useful life before replacement. As we recom-               national route structure. The new provisions will require Amtrak
mended earlier, a more complete inventory of major programs             to rank order its long distance services and make improvement to
and projects, by asset type, should be maintained and made              those services whose performance falls within the bottom third
available to Congress.                                                  of the specified route performance metrics.


PENDING REAUTHORIZATION                                                 ONGOING SAFETY & SECURITY
LEGISLATION                                                             CONCERNS
On January 16, 2007, Senators Lautenberg and Lott, and other
co-sponsors, introduced S. 294, a bill to reauthorize Amtrak            SAFETY
through FY 2012. This bill, in the last Congress, previously            Amtrak’s recent performance in a major safety performance
referred to as the “Lott-Lautenberg” bill (S. 1516), and was re-        reporting area, “Employee Reportable Injury Ratio” (FRA-
introduced as promised by a bi-partisan Senate Commerce                 reportable incidents per 200,000 man-hours) improved greatly
Committee                                                               from 3.7 reportable incidents to 2.7 reportable incidents. Overall,
                                                                        this is a very significant achievement for the corporation.
The new bill, S. 294, is one of the more important bills affecting
Amtrak in the last ten years. Not only does the bill provide            The OIG believes that Amtrak can achieve even better results,
Amtrak with a larger, multi-year source of authorizations, the          especially if greater emphasis and investment are made in the
bill prescribes several important new initiatives: allowing states      System Safety program. In a recent industry report comparing
greater access to federal matching monies for passenger rail            Amtrak’s safety performance with other large Class 1. railroads,

2    Inspector General Viewpoint
it is clear that some Amtrak departments have considerable room
for improvement. This is particularly true for Amtrak’s
                                                                       CONCLUSIONS
Mechanical Department employees, whose injury ratios are               The OIG fully supports the re-authorization of Amtrak and
almost three times higher than other similar railroads’ mechan-        consideration of S.294, and any companion House bill. It is
ical departments. The OIG will be reviewing Amtrak’s overall           extremely important that Amtrak be able to plan its future from a
safety performance much more closely in the next few reporting         strong, multi-year funding base, and it is equally important that
quarters.                                                              Congress provide clear direction with respect to the levels of
                                                                       financial and operating performance expected from Amtrak.
SECURITY                                                               We believe many of the bill’s provisions will result in positive
Several important events concerning passenger rail safety              changes for Amtrak and our nation’s passenger rail services.
occurred over the past six months. Internally, Amtrak’s Board of       Amtrak needs to find its place as part of a more integrated and
Directors and senior management firmly committed in its FY 08          rationalized national transportation plan.
Grant and Legislative Request to make security a primary focus
of Board oversight. As one of the seven critical goals identified
by Amtrak CEO Alex Kummant and Amtrak’s Board, Amtrak is
committed to “Coordinate and integrate security enhancements
into capital investments and the protection of critical
assets...[and] Develop a comprehensive passenger screening
strategy.” The OIG fully supports the direction Amtrak is taking
in making security a renewed area of investment and focus.
From an OIG perspective, we will do our part in making recom-
mendations for improvement in Amtrak’s security preparedness
programs and operations, and we plan to increase our oversight
in this area in the next two quarters and into the next fiscal year.
The OIG also testified before the Department of Homeland
Security Committee on February 13, 2007, and one of our autho-
rizing committees, the House Transportation & Infrastructure
Committee, on March 7, 2007, to present the OIG’s assessment
of passenger rail security and to comment on two draft bills
sponsored by the Committees. In my testimony, I reiterated that
I believed more federal funds should be available for passenger        Lake Shore Limited | Mohawk River, NY
rail and transit security counter-measures and security personnel.
I stressed that the time to take action to mitigate and recover
from a passenger rail terrorist attack was passing, and that
Congress needs to act quickly to pass legislation that would
provide funds to ‘build-in’ security into rail passenger and transit
wherever feasible. I also encouraged the development of secu-
rity standards and best practices within the rail sector, and to
ensure that security and safety initiatives in the rail sector
become more closely linked. My complete testimony is avail-
able at the Amtrak OIG Web site.




                                                                                                               Inspector General Viewpoint   3
Amtrak Profile
Amtrak is incorporated under the District of Columbia Business          audits of Amtrak’s financial statements; reviewing information
Corporation Act in accordance with the provisions of the Rail           technology programs and information security; providing
Passenger Service Act of 1970 (Public Law 91-518). Amtrak is            accounting counsel to, and oversight of, Finance Department
governed by a seven-member Board of Directors appointed under           operations; reviewing certain procurements and material acquisi-
the Amtrak Reform and Accountability Act (December 2, 1997).            tions for appropriateness of cost and pricing and compliance
The company operates as a for-profit corporation providing inter-       with applicable grant and/or contract terms and conditions; and,
city rail passenger service as its principal business.                  monitoring compliance with laws and regulations.
Amtrak operates more than 260 daily inter-city trains over 23,000       The Office of Investigations is responsible for investigating
route miles serving over 500 communities in every state but two         various types of fraud, abuse, and misconduct, particularly with
in the contiguous United States. Of this route system, Amtrak           regard to allegations of financial wrongdoings, kickbacks,
owns the right-of-way of more than 2,600 track miles in the             construction irregularities, bribery, and false claims; performing
Northeast Corridor. This includes Washington, DC-New York               reviews of Amtrak’s safety and security programs; recom-
City-Boston, Philadelphia-Harrisburg, New Haven-Springfield,            mending to the company better internal controls to prevent fraud
CT and short segments in Michigan and New York. Amtrak also             and abuse; and, reporting violations of law to the Attorney
operates rail services in several areas around the country under        General. It is also charged with reviewing and safeguarding
contract with state and regional commuter authorities.                  Amtrak’s cash and credit card purchases for transportation and
                                                                        food services on board Amtrak trains.
Amtrak owns many of its passenger stations and also leases other
stations from the freight railroads. It owns most of the mainte-        The Office of Inspections and Evaluations is a hybrid unit
nance and repair facilities for its fleet of about 2,000 cars and       within the OIG whose staff have specialized skills in engi-
locomotives. Amtrak employs 18,670 persons, of which about              neering, safety, labor/employee relations, mechanical
15,800 are agreement-covered employees. These employees                 maintenance operations, strategic planning, and finance. This
work in on-board services, maintenance of way, station and              group conducts targeted inspections of Amtrak programs,
reservations services, and other support areas. Outside the             providing assistance to managers in their efforts to determine the
Northeast Corridor (NEC), Amtrak contracts with freight rail-           feasibility of new initiatives and the effectiveness of existing
roads for the right to operate over their tracks. On their property,    operating methodologies. The evaluative process, whether
the host freight railroads are responsible for the condition of their   requested or mandated, consists of independent studies and
tracks and for the coordination of all railroad traffic.                analytical reviews that often serve as the cornerstone for strate-
                                                                        gies to improve program cost efficiency and effectiveness, and
                                                                        the overall quality of service delivery throughout Amtrak.
OFFICE OF INSPECTOR GENERAL
                                                                        The Office of Counter-Terrorism and Intelligence is respon-
Amtrak’s OIG was formed under the provisions of the Inspector
                                                                        sible for facilitating, and overseeing, projects and tasks
General Act Amendment of 1988. The OIG is an independent
                                                                        pertaining to rail security, counter-terrorism and intelligence
entity within Amtrak whose mission is to detect fraud, waste, and
                                                                        related to the country’s war on terrorism. This group is involved
misconduct involving Amtrak’s programs and personnel and to
                                                                        in working with external agencies to provide focus on the impor-
promote economy and efficiency in Amtrak operations. The OIG
                                                                        tance of rail security and the need for an integrated approach for
investigates allegations of violations of criminal and civil law,
                                                                        addressing the many challenges in securing an open-architecture
regulations, and ethical standards arising from the conduct of
                                                                        rail passenger system.
Amtrak employees in performing their work. The OIG also audits
and evaluates Amtrak operations and assists management in               OIG personnel are located in eight offices in Washington, DC
promoting integrity, economy, efficiency, and effectiveness. The        (Headquarters), Baltimore, Wilmington, Philadelphia, New
OIG consists of the following units with specific responsibilities:     York, Boston, Chicago, and Los Angeles.
The Office of Audits is responsible for conducting independent
reviews of Amtrak’s internal controls; overseeing and assisting




4    Amtrak Profile
                                                                                   Office of Audits
SIGNIFICANT AUDITS
INTERNAL OPERATIONS REVIEW
Record keeping and follow-up over employee
contributions were inadequate
Report #103-2006 – Issued 01/12/2007
As a result of employee complaints regarding the distribution of
employee contributions to United Way and designated recipi-
ents, the OIG initiated an audit of the program. Amtrak
participates in an annual United Way Campaign through the
United Way of the National Capital Area in Washington DC.
This annual campaign is administered by Amtrak’s Human
Resources Department under the direction of a Project Manager.
The United Way office in Washington DC is responsible for
ensuring that Amtrak contributions are forwarded to the
employee-designated recipients.
Our review indicated that both Amtrak and United Way records
                                                                      Union Station | Los Angeles, CA
were either incomplete or unreliable; and, we concluded that
record keeping and follow-up were inadequate to ensure for the
                                                                      unsupported adjustments pose the risk that employee hours and
proper accounting and transmittal of employee contributions to
                                                                      wages may be adjusted without authorization and inappropriate
the designated agencies.
                                                                      classifications of expenses may occur affecting the reliability of
We recommended process changes to strengthen record keeping           data and the financial statements.
and follow-up. Amtrak Human Resources and the United Way
                                                                      We recommended that Mechanical Department management
of the National Capital Area concurred with the OIG recommen-
                                                                      require adequate documentation and approval for all timecard
dations and agreed to implement process changes to strengthen
                                                                      adjustments. When operating expenses are transferred to capital
controls.
                                                                      projects, information about the specific capital project should be
Time card adjustment process for reclassification of labor            included in the supporting documents. The Mechanical
from operating to capital lacked adequate internal controls           Department provided a written response indicating corrective
Report #109-2005 – Issued 12/19/2006                                  actions planned.
The OIG initiated this audit at the request of KPMG, Amtrak’s         New England Flagmen – Over $370,000 not billed for
external auditor, as part of the annual FY 04 financial statements    flagging protection
audit. In FY 04, the Finance Department performed a review of         Report #204-2006 – Issued 1/30/2007
a sample of labor charges associated with the Engineering capital
                                                                      Our review disclosed that Amtrak had not billed the State of
projects and found instances of adjustments where timecards
                                                                      Rhode Island for over $370,000 for flagging protection labor,
originally coded to operating expenses were later transferred to
                                                                      and that Amtrak was not performing a thorough review of docu-
capital projects. Their review also indicated a potential risk that
                                                                      mentation to ensure that flagmen billings were accurate and
the adjustment process may enable unauthorized or unsupported
                                                                      complete. Amtrak management agreed with the majority of the
transfers affecting reliability of the financial statements. Due to
                                                                      audit findings and will ensure that adequate supporting docu-
the risk identified in the Engineering labor timecard adjustments,
                                                                      mentation is maintained for future billings.
KPMG requested that the OIG expand the audit scope to include
the Mechanical Department labor charges.                              Sale and Disposal of Material and Equipment
                                                                      Report #203-2007 – Issued 3/30/2007
While capital reclassification of labor charges was appropriate,
the observed adjustments did not follow Amtrak’s procedures           Our review disclosed that the sale and disposal of material and
which require that a corrected source document must be prepared       equipment were being handled properly in accordance with
with an explanation of why an adjustment is necessary. The            existing policy. However, we reported that the existing policy


                                                                                                                    Office of Audits   5
could be improved by providing more explicit and detailed                We were also asked to perform a pricing review. Subsequent to
instructions. We recommended and management agreed to                    the pricing review, Amtrak’s Procurement and Materials
revise the current policy to address specific procedures in the          Management Department made the decision to purchase a
sale and disposal of material and equipment.                             limited number of spare parts. Based upon our audit of the
                                                                         consortium vendor invoices, we identified $222,186 in ques-
Internal Controls Over Regulatory and Amtrak Mandated
                                                                         tioned costs.
Training
Report #300-2004 – Issued 11/21/2006                                     Observation of FY2006 Annual Maintenance of Way
                                                                         Inventory – Unreported Withdrawals of Stock and
The OIG reviewed the internal controls over Amtrak employee              Continued Increase in Inventory Value
training to determine whether the controls are adequate to ensure        Report #218-2006 – Issued 2/16/2007
that Amtrak employees are receiving all regulatory and other
Amtrak mandated training. Weaknesses in the system used by the           We observed the annual maintenance of-way physical inventory
Amtrak Human Resource (HR) Department to ensure that Amtrak              conducted by Amtrak’s Materials Management and Engineering
employees complete mandatory training in a timely manner were            Departments. We found that the inventory was generally taken
noted. These weaknesses make it difficult to determine if                in accordance with instructions. We offered observations and
employees received all regulatory and Amtrak required training           recommendations about some inventory process weaknesses that
for their positions. We found that there in no consistent or central-    resulted in changes to the counts after the auditor’s visits. We
ized way to identify and monitor required training or internal           also found that Amtrak could not ascertain the correct inventory
controls to notify employees and supervisors of the need of the          count for concrete tie clips because the vendor with custody of
training requirements. Some of the individual regulatory and             this stock item had intermingled Amtrak and the vendor’s stock,
other mandated training courses are sometimes part of a larger           and was not maintaining inventory records indicating ownership
training initiative and specific training courses are not listed sepa-   of the intermingled stock. In addition, we uncovered a problem
rately on the training transcript. Formal guidelines and procedures      at three material stores that were not reporting withdrawals of
for recording completion of required training do not exist so there      large dollar value stock; therefore, we recommended that
is no assurance that training documentation is adequate and              Engineering require its personnel to comply with policy and
consistent for all regulatory and other Amtrak mandated training.        provide Materials Management with a properly authorized mate-
In addition, the Human Resource department maintained training           rial charge out document at the time material is taken from the
profiles for some but not all job titles in the database. These          location.
profiles would provide a description of the training required for
                                                                         We also noted that the trend of increasing maintenance of way
the position. The HR department had initiated the development of
                                                                         valuation (13% in FY06) and decreasing inventory turnover
training profiles but did not complete the task.
                                                                         (from 2.44 in FY04 to 1.46 in FY05 to 1.33 in FY06) continued.
To ensure that Amtrak interests are fully protected, we recom-           Based on our review, the trend has resulted from some over-
mended that controls be strengthened in order to reasonably              stocking of material used as spares and to meet normal
assure that employees are completing required training. We               maintenance and capital requirements as well as project delays.
recommended that the Vice-President of HR implement a formal             We recommended that the Materials Management and
written policy to better control required training.                      Engineering Departments establish and monitor a goal of not
                                                                         receiving ordered material more than a specified time period
Management agreed to all of the findings and indicated that
                                                                         prior to the planned installation.
controls would be strengthened to assure that required training is
accomplished and properly recorded.
                                                                         STATIONS
INVENTORY                                                                Emergency Exchange Voucher and Miscellaneous Station
                                                                         Expenses (302-2006)
Physical Inventory of ACELA High-Speed Rail Parts
Questioned Costs $222,186                                                Report #302-2006 – Issued 1/11/2007
Report #215-2006 – Issued 1/25/2007
                                                                         We performed an audit of Emergency Exchange Voucher (EEV)
Amtrak’s Materials Management Department requested that the              and miscellaneous station expenses at five stations in the New
OIG assist in counting the Acela “Parts” inventory. The inven-           England Division to determine if transactions were processed in
tory was owned by the Bombardier/Alstom OEM consortium.                  compliance with guidelines and properly supported by valid


6    Office of Audits
                                                                        and facilities for intercity rail passenger operations. The OIG
                                                                        review of charges billed to Amtrak and identified a net adjust-
                                                                        ment of $144,659. We found erroneous billings in 10 of the 14
                                                                        items selected for audit, $230,282 overbilled and $85,623 under-
                                                                        billed for a net total of $144,659 due Amtrak.                 UP
                                                                        representatives agreed with our findings. We recommended and
                                                                        management agreed to initiate a final settlement letter and collect
                                                                        monies due to Amtrak.


                                                                        UNRESOLVED AUDIT ISSUES
                                                                        Appendices 1 and 2 show the status of management decisions on
Acela Express | Northeast Corridor                                      audit recommendations and dollar values of questioned costs,
                                                                        unsupported cost, and funds to be put to better use.
receipts and other required documentation. The results of the
audit indicated that there is a lack of consistency in the processing   Section 5(a)(10) of the Inspector General Act of 1978 as
of EEV and the supporting documentation; some transactions              amended requires “a summary of each audit report issued before
were processed without passenger signatures. Stations using             the commencement of the reporting period for which no manage-
Miscellaneous Billing Forms to process miscellaneous expenses           ment decision has been made by the end of the reporting period.
used an obsolete version of the form that lacked adequate signa-        . .” Such reports are shown in Appendix 1 and 2. Section
ture requirements for the recipient and issuing agent.                  5(a)(11) requires “a description and explanation of the reasons
                                                                        for any significant revised management decision made during
We discussed the results of our audit with the Senior Director of       the reporting period.” There were none during this reporting
On Board Services & Station Operations, who was in the process          period. Section 5(a)(12) requires “information concerning any
of reviewing and revising EEV and miscellaneous expense                 significant management decision with which the Inspector
guidelines for the Amtrak Station Services Standards and                General is in disagreement.” Again, no such decisions were
Operations, and reviewed the proposed revisions, and recom-             made during this reporting period.”
mended several changes and additions which were incorporated
into the proposed revisions.
We recommended and management agreed that the revised
                                                                        MANAGEMENT RESPONSES OVER
sections of the Amtrak Station Services Standards and                   180 DAYS OLD FOR WHICH
Operations Manual be issued to all stations with instructions that
they be strictly followed, and those Amtrak managers respon-
                                                                        CORRECTIVE ACTION HAS NOT BEEN
sible for station operations periodically review EEV and                COMPLETED
miscellaneous expense transactions to ensure that the new proce-        The OIG continues to monitor and follow up with management
dures are being followed.                                               on corrective action measures. The following items were
                                                                        reported in previous semiannual reports and additional informa-
RAILROAD AUDITS                                                         tion is being reported.
Union Pacific Audit                                                     Mass Transit Products, Inc. - Termination for Default for
$144,659 Excess Billings Identified                                     Superliner I Overhaul
Report #407-2004 – Issued 3/7/2007                                      Questioned Costs $63,184
                                                                        Report #219-2005 – Response 1/25/2006
Amtrak entered into an Agreement with the Union Pacific
Railroad Company (UP), which consolidated the four previous             The Procurement and Materials Management Department is still
contracts for the Southern Pacific, the Union Pacific, the              involved in ongoing settlement negotiations with the contractor
Southern Pacific Central States Line, and the Denver and Rio            and his suppliers and we will continue to monitor actions taken.
Grande Western Railroads for intercity rail passenger operations
on tracks and properties owned by UP. Under the agreement
provisions, the UP bills Amtrak each month for specific services


                                                                                                                      Office of Audits   7
                                                                       eTrax P-Card Review
    AUDIT STATISTICS                                                   Report #202-2005 – Response 7/7/2006

    Status of Audit Projects                                           We found varying degrees of non-compliance with the P-Card
                                                                       reconciliation and approval process and recommended that addi-
    Audits in progress at 10/1/06                              44      tional resources be expended to monitor the reconciling,
    Audit projects postponed or cancelled                       7      documenting and approval of credit card charges. Management
    Audit projects started                                     19      agreed with our findings and implemented improvements. We are
                                                                       currently testing to determine whether a management exception
    Audit reports issued                                       15
                                                                       report adequately monitors and ensures proper usage of P-Cards.
    Audit projects in progress 3/31/07                         41
                                                                       NEC Work Trains
    Audit Findings                                                     Report #212-2003 – Response 10/28/2003
    Questioned costs                                  $1,106,993       Our review disclosed that Amtrak could establish a more effi-
    Unsupported costs                                          $0      cient system to fuel Mid-Atlantic work trains by fueling work
                                                                       trains at a closed fueling location. Management has stated that
    Funds to be put to better use                              $0
                                                                       they believe the problem has been resolved. We will continue to
    Total                                               $106,993       monitor the actions taken.
                                                                       Amtrak’s Overtime Expenses – Internal Control Issues
                                                                       Not Yet Resolved
eTrax Trip Manager Review – Agreed to Actions in                       Report 03-205 – Response 4/20/2005
Progress.
                                                                       Management issued a response addressing our findings and indi-
Report # 215-2005 – Response 9/9/2005
                                                                       cated that management will ensure proper training and oversight
We made several recommendations to improve the internal control        of timekeepers regarding the completion of payroll operation
over airfare procurements. Management’s issuance of P/I 11.48          field audits as required. Additionally, management informed us
has resolved various procurement and authorization issues;             that they have submitted a new policy for staff summary
however, we are still testing to determine whether controls relating   approval. We will continue to monitor the actions taken.
to airfare procurements and related payments are adequate.             CSXT – Non-On-Time Performance Items Audit
eTrax Payment Request Review                                           $1,003,964 Erroneous Billings Identified
Report#202-2004 – Response 1/14/2005                                   Report #01-105 – Response 8/20/2001

We made several recommendations to address the weakness in             The Chicago office re-evaluated proposed audit adjustments,
internal controls, improve procedures to clarify roles and respon-     supporting documentation, correspondence, and audit workpa-
sibilities and monitor compliance. Management agreed with our          pers in preparation for discussions with CSXT to resolve
findings and has implemented improvements. We are currently            remaining outstanding issues.
reviewing these control improvements to determine if corrective
                                                                       The following items have been reported in previous semiannual
actions have been adequately completed.
                                                                       reports. As of this reporting period, no new developments were
eTrax Expense Report Review                                            reported:
Report #201-2005 – Response 5/18/2005
                                                                       CSX – New York High Speed Line Agreement
We found a high degree of non-compliance with Amtrak’s travel          Report #207-2003 – Response 5/18/2006
policy and eTrax instructions. Management has issued P/I 11.48
                                                                       Southern Pacific Central States Line – Questioned Costs
and an eTrax manual, addressing the majority of the findings.
                                                                       Not Yet Resolved
We are still testing the link between Travel Authorization and
                                                                                              Semiannual
Expense Report to ensure compliance with Amtrak policy.
                                                                                             Period Ending      Response Date
                                                                       Report #01-506           09/30/2001         09/04/2001
                                                                       Report #01-507           09/30/2001         09/04/2001
                                                                       Report #01-508           09/30/2001         10/12/2001
                                                                       Report #01-509           09/30/2001         10/12/2001
8      Office of Audits
                                                                      Office of Investigations
 CASE STATUS OF INVESTIGATIONS                                                   HOTLINE STATISTICS
 10/1/06 – 3/31/07                                                               10/1/06 – 3/31/07                                         Total
 Total Open Cases as of 10/1/06                                         317
                                                                                 Hotline Complaints Received                                     5
 Closed Cases                                                         (107)
 Opened Cases                                                            79      Sources of Hotline Complaints
 Total Ongoing Cases as of 3/31/07                                      289
                                                                                 Amtrak Employee                                                 4
                                                                                 Anonymous Source                                                1

CASE HANDLING                                                                    Classification of Complaints
The OIG receives allegations from various sources, including                     Non-criminal – Other                                            2
employees, confidential informants, Congressional sources,                       Criminal – Other                                                2
federal agencies and third parties. Presently, we are handling                   Mismanagement                                                   1
289 investigations: in the last six months, we opened 79 cases
and closed 107 cases.                                                            Complaints Referred To:

As set forth in the chart below, entitled “Sources of Allegations”,              OI Field Offices                                                4
employees and anonymous source referrals accounted for about                     Human Resources                                                 1
62 percent of the allegations during this reporting period, with
employees being the source of 36 of the 79 allegations or 46
percent. All allegations are reviewed, screened and resources are               The fraud OIG HOTLINE program has continued to provide
allocated based upon, among other things, the seriousness of the                employees or third parties an opportunity to report allegations of
allegations and potential harm to Amtrak or the public.                         fraud, waste, abuse, and other wrongdoing. Employees can
                                                                                access the HOTLINE twenty-four hours a day by calling Amtrak
                                                                                Telephone System number 728-3065 in Philadelphia and the toll
                                                                                free number (800) 468-5469 if outside Philadelphia. During
 SOURCES OF ALLEGATIONS                                                         working hours from 9:00 a.m. to 4:30 p.m., OIG staff answer the
                                                                                callers on the HOTLINE system. During other hours or during
 10/1/06 – 3/31/07
                                                                                those occasions when staff are away from the office, callers can
                                                  Private Citizen 2             leave a message on the HOTLINE answering machine. In addi-
                                                                                tion, people can write in confidentially to P.O. Box 76654,
                                                  Referred by Audit 1
                                                                                Washington, DC 20013. The OIG received five (5) telephonic
                                                  Referred by Other             HOTLINE complaints during this reporting period.              The
                                                  Amtrak Departments 3
                                                  Referred by                   HOTLINE complaints received during this reporting period
                                                  Amtrak Police Department 2    were from a private citizen and an Amtrak employee.
                                                  Referred by Fed/State/Local
                                                  Law Enforcement 1
                                                  Other 7
                                                  Referred by Other OIG 1
                                                                                SIGNIFICANT INVESTIGATIONS
                                                                                Theft and fraud is a problem for many organizations that handle
                                                                                large amounts of cash. Due to the nature of the passenger rail
    Confidential
                                          Amtrak Employee                       business, cash transactions on both our trains and in our stations
                                                36
    Informant 8                                                                 are at risk for employee embezzlement and/or theft of company
                                                                                assets. The OIG spends considerable time and effort identifying
       Anonymous                                                                and addressing these issues, with examples of such investiga-
       Source 13                   Former
                              Amtrak Employee 5
                                                                                tions listed below.




                                                                                                                      Office of Investigations       9
!    In a previously reported case regarding our investigation of a    !   The OIG conducted an investigation of a Conductor assigned
     former Amtrak Assistant Conductor based in Shelby,                    to Fort Worth, Texas for embezzling monies from on-board
     Montana, the employee pled guilty in the United States                ticket sales. The Conductor, who had been terminated from
     District Court for the District of Montana, Great Falls               Amtrak for insubordination, accepted a pre-trial agreement
     Division, to violation of 18 U.S.C. 666(a) (1) (A), Theft from        with the United States Attorney’s Office. Under the agree-
     An Organization Receiving Federal Funds. He was sentenced             ment prosecution was deferred for eighteen (18) months on
     on December 15, 2006, to five (5) years probation and                 condition that the former employee not violate any laws,
     ordered to pay $18,986 in restitution to Amtrak.                      complete sixty (60) hours of community service and pay resti-
                                                                           tution to Amtrak in the amount of $12,000.
!    In another case, which we previously reported upon, fifteen
     (15) Amtrak Lead Service Attendants (LSAs) based in
     Chicago, Illinois were indicted for Theft by a Grand Jury in      MISUSE OF COMPANY ASSETS
     the Circuit Court of Cook County on October 30, 2006.             The OIG conducted several investigations pertaining to the
     These 15 employees failed to remit monies to Amtrak totaling      misuse of company assets.
     $62,095.82. Under this scheme, generally the employees
     misreported their on board sales figures and as a result failed   !   The OIG investigated the improper use of an Amtrak General
     to remit all monies collected from passengers due to Amtrak.          Services Administration (GSA) leased vehicle by a Road
                                                                           Foremen for the MARC Service in Baltimore, Maryland. The
!    The OIG received information from a Maryland Area Rapid               Road Foreman, who did not have alternate garaging privi-
     Commuter (MARC) Conductor that he had taken possession                leges under Amtrak’s policies regarding vehicle use, was
     of a fraudulent MARC ticket from a passenger. The subse-              regularly using the vehicle to travel from Baltimore’s Penn
     quent investigation revealed that the passenger, a former             Station to his residence and to a non-work related location. In
     employee of the U.S. Department of Housing & Urban                    addition, the Road Foreman’s supervisor, the Superintendent
     Development (HUD), was using HUD equipment to create                  of Commuter Services, had knowledge of the unauthorized
     fraudulent MARC monthly tickets from at least June 2006               use of the vehicle and did not insure that Amtrak’s vehicle
     through December 2006. As a result of the OIG investiga-              policy was followed. As a result, the Road Foreman offered
     tion, a warrant was issued and on March 8, 2007, the suspect          his resignation of his management position, which was
     was arrested by the Jefferson County Sheriff’s Department             accepted. The Superintendent was counseled.
     and charged with Uttering Fraudulent Schemes. On March
     29, 2007, the suspect pled guilty and was ordered to pay resti-   EFFICIENCY AND EFFECTIVENESS
     tution of $731 to MARC, given one year probation and 40
                                                                       In addition to detecting and deterring fraud, waste, abuse and
     hours of community service.
                                                                       wrong doing in Amtrak’s programs and operations, OIG investi-
                                                                       gations also provide information and recommendations to
                                                                       company employees and officials towards improving efficiency,
                                                                       effectiveness and adaptability. During this reporting period,
                                                                       OIG investigations have led to recommendations concerning
                                                                       quality improvement to which management generally responded
                                                                       positively and implemented, for the most part, those recommen-
                                                                       dations as detailed below.
                                                                       !   The OIG conducted a review that showed that an Amtrak
                                                                           department routinely spent excessive funds for hotel stays,
                                                                           meal hosting at expensive restaurants, out-sourced catering,
                                                                           and on-board services for recurring inspection tours. These
                                                                           findings were reported to the Department head who issued a
                                                                           new protocol for these inspection trips, which was designed to
                                                                           significantly reduce their expense to Amtrak.
Acela Express | Hellgate Bridge, NY                                    !   The OIG found during an investigation that Amtrak
                                                                           employees who were furloughed and suspended were


10     Office of Investigations
    retaining their Amtrak identifications. One incident involved
    furloughed and suspended employees who were using their
    Amtrak identifications to assist other Amtrak employees
    during their theft of copper wire. OIG referred this informa-
    tion to Human Resources, the Chief Operations Officer and
    the Amtrak Police. Management responded to our referral
    and advised that a new Amtrak employee identification card
    policy was in the process of being issued. Management
    further advised that a section of that policy would require
    supervisors to obtain employee identification cards from
    suspended and out of service employees.
!   The OIG investigated the Amtrak Police Department (APD)
    Internal Affairs (IA) Office release to another law enforce-
    ment entity an Officer’s service records of arguably
    privileged information. OIG recommended and APD agreed            California Zephyr
    to implement procedures and controls regarding the inter-
    viewing of APD personnel by outside parties and consider              As a result of the OIGs’ inquiry, Amtrak is implementing new
    developing written policies and procedures on the release of          guidelines for complimentary travel, as well as creating poli-
    investigative files.                                                  cies and procedures for auditing departments and programs
                                                                          that participate in providing complimentary travel for legiti-
CONFLICT OF INTEREST                                                      mate business related travel.
Amtrak policy states, in relevant part, “Amtrak requires all          !   The OIG discovered that an Amtrak executive and senior
employees to observe the highest standards of business ethics.            manager had accepted meals and other entertainment from a
They must conduct the business and operation of Amtrak and                major Amtrak service vendor in violation of Amtrak’s conflict
their affairs in a manner that complies with applicable law and           of interest policy. The personnel involved were disciplined.
high moral and ethical standards and avoids any possible conflict
of interest or appearance of a conflict of interest. They shall not
realize personal gain, or help others to gain, from their positions   TIME AND ATTENDANCE REVIEWS
with Amtrak or from knowledge or information not released to          Amtrak’s success depends on using available resources in an
the public.” Although this policy is in place to help avoid and       efficient and productive manner, including their most valuable
address conflict of interest situations, during this reporting        resource, Amtrak employees. Therefore, it is important for
period, the OIG investigated the following allegations pertaining     employees to report to work on time and perform their duties
to transgressions of this policy.                                     during their assigned hours, including those designated for over-
                                                                      time. The OIG receives and investigates allegations regarding
!   OIG found that certain management employees provided free         time and attendance issues. The following are illustrative of
    travel on Amtrak trains to individuals having no legitimate       OIG Time and Attendance investigations conducted during this
    claim to complimentary travel. The OIG determined that            reporting period.
    Amtrak travel tickets, valued in excess of $180,000, were
    provided to persons on a complimentary basis under the guise      !   The OIG received information that a New England Division
    of legitimate Amtrak programs. Travel included numerous               clerk submitted overtime hours for work performed during his
    complimentary trips on Acela Express, Regional Service,               normal workday. During the investigation, OIG determined
    Auto Train, and long distance service including first class           the clerk submitted more than $30,000 in questionable over-
    accommodations. The OIG also learned during the inquiry               time over a five year period. The clerk often performed
    referenced herein that the same Washington based manage-              clerical work outside his regular duties without using a time
    ment employees provided complimentary hotel rooms                     clock. Because the overtime was forwarded from a different
    courtesy of Amtrak to individuals having no legitimate claim          department, the clerk’s supervisors only checked that the
    to said hotel rooms. Other management employees also used             hours would be charged to the other department, and simply
    Amtrak supplied hotel rooms for personal business.                    accepted the overtime without any verification of the hours



                                                                                                           Office of Investigations   11
                                                                                                              time were discovered. As a result of the review, APD
    CLASSIFICATION OF CASES                                                                                   Management instituted a policy that requires prior approval
    OPENED DURING THIS PERIOD                                                                                 for arbitrary overtime.

    10/1/06 – 3/31/07                                                                                         The OIG recommended and APD management agreed that
                                                                                                              oversight and review of incurred overtime take place to
    Type                                                                                 Number
                                                                                                              prevent or identify incidents of abuse; controls should be in
    Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21        place to ensure that proper payroll coding is utilized, and that
    Theft/Embezzlement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8                  attention be given to any officer who works a special duty
    Kickbacks . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2         assignment and can receive overtime based on the needs of
                                                                                                              that assignment. The OIG further recommended that the APD
    False Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                                                                                                              review the special duty positions and determine if there is a
    False T&A Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8              more efficient way to assign them. At the close of this
    Other Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4            reporting period, the APD have included the recommenda-
    Waste . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4       tions as agenda items to be adopted.
    Abuse of Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
    Mismanagement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                                                                                                          JOINT INVESTIGATIONS
                                                                                                          !   The OIG recently investigated an allegation regarding an
    Conflict of Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                                                                                                              employee receiving a bribe in connection with contract work.
    Administrative Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10                   Through a joint investigation between Amtrak’s OIG and the
    Other Non-Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10                 Oakland, California Office of the Federal Bureau of
    TOTAL                                                                                          79         Investigation (FBI), it was determined that an Amtrak Project
                                                                                                              Manager had solicited an Amtrak contractor to increase his
                                                                                                              prices fraudulently while performing an Amtrak project to
                                                                                                              cover the costs of a construction project in the Project
      worked or direct supervision of the performance.                                                        Manager’s home. As a result of the investigation, the Project
      Additionally, Amtrak management made an arrangement to                                                  Manager was terminated as an Amtrak employee, and
      pay the clerk two and one-half overtime hours to clean a                                                indicted by a Grand Jury. Subsequently the employee entered
      remote station platform once a week. OIG determined                                                     a plea of guilty in federal district court on December 3, 2006.
      through observation and interviews that the clerk usually                                               A federal judge sentenced the former employee to six (6)
      spent one hour or less at the remote station. Amtrak manage-                                            months confinement at a halfway house, six (6) months house
      ment simply paid the overtime without verifying the hours                                               arrest, and three (3) years supervised probation.
      worked and only infrequently checked that the work was even                                         !   The OIG received an allegation that an Amtrak employee was
      performed.                                                                                              using an Amtrak-issued credit card for personal gain, which
                                                                                                              was reported lost/stolen. A joint investigation by Amtrak’s
      In response to the OIG inquiry and findings, Amtrak manage-
                                                                                                              OIG and the Government Services Administration OIG
      ment implemented policies to prevent such lapses in
                                                                                                              substantiated the allegation. The employee was terminated as
      supervision. Subsequently, Amtrak disciplined the clerk’s
                                                                                                              a result of another company violation. In March 2007, as a
      direct supervisor and reaffirmed with passenger services
                                                                                                              result of the joint investigation, the former employee was
      managers the existing policies requiring the use of available
                                                                                                              arrested and indicted for violation of Access Device Fraud
      time clocks and active time monitoring.
                                                                                                              under Title 18 USC 1029, these charges are currently pending
!     At the request of a former Amtrak Police Chief, the OIG                                                 in federal district court.
      conducted a review of overtime and miscellaneous expense
      reimbursement within the Amtrak Police Department. The                                              REVENUE PROTECTION UNIT
      review uncovered two situations of arbitrary overtime being
                                                                                                          Amtrak provides food and beverage service on board trains to
      incurred without prior management approval; and identified
                                                                                                          millions of passengers each year. The revenue generated by
      specific job classifications that are subject to overtime abuse
                                                                                                          these sales as well as the food stock and supplies used to supple-
      potential due to difficulty in obtaining prior management
                                                                                                          ment these sales, afford a dishonest employee the means for
      approval. In addition, several instances of miscoding of over-

12        Office of Investigations
revenue abuse or theft. The Revenue Protection Unit (RPU)
provides critical guidance and support in the strengthening of       PROSECUTIVE REFERRALS
management accountabilities and responsibilities as well as          10/1/06 – 3/31/07
internal controls.
                                                                     Referrals                U.S. Attorney       Local/State            Total
RPU Initiated Train Service Reviews
                                                                     Criminal Cases
!   During this reporting period, RPU analyzed the applicable
    support documents for on board food and beverage sales on        Indictments                     0                  0                  0
    over two hundred, ninety (290) trains for seventy-eight (78)     Convictions/Pleas               1                  0                  1
    various Lead Service Attendants (LSA). The completed             Pending*                        6                  0                  6
    reviews resulted in administrative referrals, regarding more
                                                                     Declinations                    0                  0                  0
    than 51% of the LSAs reviewed, ranging from theft and fraud
    to failure to follow procedures. At the completion of this       Resolved                        0                  0                  0
    reporting period, discipline had been assessed for over twenty   TOTAL                           7                                     7
    (20) LSAs.
                                                                     Civil Cases
!   RPU also conducts preliminary reviews of conductor cash
    fares to identify, analyze and document, then refer for          Suits Filed                     0                  0                  0
    continued handling, conductor reviews that indicate possible     Settled                         0                  0                  0
    theft or misappropriation situations. During the second half     Pending                         0                  1                  1
    of this reporting period, RPU completed and forwarded to the
                                                                     TOTAL                                                                 1
    appropriate management personnel, nine (9) conductor refer-
    rals indicating possible discrepancies or inconsistencies in     Total Civil and Criminal                                              8
    remittance procedures.                                           *Some of these will be reflected under pending civil cases because these
                                                                     matters are being handled by the United States Attorney’s office in parallel
                                                                     proceedings. In cases where there have been convictions or pleas, we may be
                                                                     awaiting sentencing, restitution, or other resolutions.




                                                                                                                 Office of Investigations           13
Office of Inspections and Evaluations
SIGNIFICANT INSPECTIONS &                                          Diesel Locomotive Maintenance Consolidation

EVALUATIONS                                                        One of the recommendations in our report on Amtrak’s
                                                                   Mechanical Maintenance Operations was for Amtrak manage-
                                                                   ment to examine the costs and benefits of outsourcing part of the
AMTRAK MECHANICAL OPERATIONS – OIG
                                                                   maintenance operation to an experienced maintenance provider.
CONTINUING TO HELP WITH IMPLEMENTATION OF                          To assist Amtrak management in this regard, we engaged a
PREVIOUS RECOMMENDATIONS                                           consultant who had helped in the negotiations of several large
In September 2005, we issued report E-05-04, which resulted        locomotive maintenance contracts. With his assistance, Amtrak
from a yearlong system-wide review of Amtrak’s Mechanical          management is in discussions with one of the largest locomotive
Maintenance Operations. In this report, we recommended that        maintenance providers in North America. In preparation for
Amtrak adopt a more modern maintenance philosophy based on         possible outsourcing, Amtrak has consolidated its diesel locomo-
Reliability-Centered Maintenance (RCM). An RCM-based               tive maintenance operations and made significant facility
program requires that all maintenance activities be supported by   improvements. Even if an agreement does not come to fruition,
sound technical and economic justifications.                       these actions will lead to improved efficiencies and overall
                                                                   reduced maintenance costs – potentially as much as was envi-
Our report recommended specific actions that Amtrak should         sioned through outsourcing.
take to transition to RCM and to make the operations more effi-
cient. For the past eighteen months we have been working with      Equipment Reliability Improvements
the Mechanical Department to help them implement our recom-        The OIG continues to facilitate and support the establishment of
mendations.                                                        teams dedicated to conducting Root Cause Analyses into recur-
Implementation of Reliability-Centered Maintenance                 ring equipment failures. The teams that have been established
                                                                   have made significant contributions to the improvements in reli-
Although day to day administration of this initiative is now       ability of both the Acela trainsets and the High Horsepower
under the Chief Operating Officer, the OIG remains engaged in      (HHP) Locomotives. Acela delays due to mechanical failures
an oversight role to help facilitate progress. We anticipate       have decreased by 33% over the past six months and HHP
greater than a 10% improvement in availability of the Acela        Locomotive availability has increased by 42% during the first
Fleet in FY08 based on this initiative. We also expect mainte-     half of FY07 versus FY06.
nance costs per Acela train mile to noticeably decrease under
RCM. Efforts are already underway to expand RCM beyond
Acela to Amtrak’s conventional fleets of equipment, with similar
                                                                   PROCUREMENT AND MATERIAL SUPPLY CHAIN
results expected.                                                  MANAGEMENT – OIG FACILITATING IMPROVEMENT
                                                                   EFFORTS
Mechanical Maintenance Process Improvement
                                                                   Alstom Parts Contract
The OIG-initiated efforts to improve the cycle times of key
maintenance processes have continued, and this initiative is now   Amtrak entered into a contract with Alstom TLS to supply and
also under the control of the Chief Operating Officer. The OIG     manage the parts inventory for the Acela trainsets, effective
has remained engaged in an oversight role to help facilitate       October 1, 2006. This contract has an estimated value of close to
progress. During this period, additional improvements have         $200 million over the five-year term. Based on the value of the
been made in several key processes. For example, the preventive    contract and the importance of the contract to the success of
maintenance cycle time for Amfleet Cars, previously reduced        Amtrak’s premium Acela service, the OIG conducted an evalua-
from 4 days to 3 days, has continued to be reduced to now under    tion to determine if the terms and conditions of the contract were
2 days. The preventive maintenance and repair cycle time for       being fully complied with and if processes have been put in place
Superliner Cars in Chicago have been reduced from over 9 days      by Amtrak to adequately measure and monitor the contractor’s
per car to approximately 6 days per car. These, along with other   performance. We have issued preliminary findings and are
process improvements, have resulted in significant improve-        working with the Mechanical and Procurement Departments in
ments in equipment availability (in some fleets greater than 5%)   resolving identified shortfalls. We plan on issuing a “lessons
and over $2 million in reductions in annual maintenance costs.     learned” report as a guide for Amtrak to use in managing similar
                                                                   contracts in the future.



14   Office of Inspections and Evaluations
Mechanical Supply Chain Effectiveness
At the request of the Vice President of Procurement, the OIG is
sponsoring and helping to facilitate an initiative to improve the
efficiency and effectiveness of the material supply chain in
providing parts and materials for Rolling Stock maintenance.
Cross functional teams have been established to evaluate current
practices in demand planning, supplier management, order
fulfillment and warranty management. Facilitated by industry
experts from the Dallas-based Thomas Group, the assessment
teams are reviewing current processes and revising them to more
align with industry best practices. Although still early, the initial
results from these assessments have been promising with signifi-
cant results expected during the next reporting period.

HARASSMENT AND INTIMIDATION COMPLAINTS –
ALLEGATIONS NOT SUBSTANTIATED
Amtrak’s Statement of Policy Against Harassment and                     Crescent | VA
Intimidation states, in part, “Amtrak will, under no circum-
stances, tolerate harassing or intimidating conduct by any              CONDUCTOR AND LSA NON-REMITTANCE – OIG
employee that is calculated to discourage or prevent any indi-          CONTINUING INVOLVEMENT
vidual from receiving proper medical treatment or from
reporting an accident, incident, injury or illness.” This               Amtrak employees handle approximately $100 million annually
Statement of Policy conforms to Federal Railroad                        in on-board ticket and food and beverage sales. The OIG previ-
Administration Regulations 49 CFR Part 225.33. The OIG                  ously issued two evaluation reports where we noted substantial
investigates allegations of violation of this policy.                   evidence of employee theft, and we made recommendations to
                                                                        improve the oversight and control of cash generated from these
During this reporting period, three formal complaints that were         on-board sales.
received in the previous reporting period were investigated and
concluded. The OIG determined that none of the allegations              The OIG Inspections and Evaluations staff works closely with
were acts of harassment or intimidation by management in their          the OIG Revenue Protection Unit (RPU), whose work is high-
handling of employee’s injuries. It was determined, however,            lighted earlier in this report. Also, the I&E staff continues to
that several Amtrak policies and procedures surrounding the             interact with both Amtrak’s Transportation and Product
accurate reporting and handling of injuries and illnesses were not      Management departments to advise on conductor and On-Board
properly followed in one of the alleged complaints. These               Service (OBS) employee remittance policy and procedures as
results were documented and discussed with management for               well as process improvements for safeguarding both on-board
follow-up training.                                                     ticket sales and food and beverage revenues as well as an
                                                                        increased focus on OBS accounting procedures.
In addition, the OIG received one new employee complaint of
                                                                        Since October 2002, more than 220 conductors and 180 OBS
Harassment and Intimidation. After conducting an inquiry into
                                                                        employees have either resigned or been terminated from the
the complaint, it was determined that the allegations could not be
                                                                        company, in part as a result of OIG’s efforts in this area, for
substantiated as acts of harassment or intimidation as defined by
                                                                        misappropriation of revenues and/or violation of Service
FRA 49 CFR 225.33. The OIG, however, is continuing a review
                                                                        Standards related to on-board sales. Additional OIG reviews of
of the work environment as it relates to local management’s
                                                                        food and beverage operations are planned in the next reporting
handling of employee discipline.
                                                                        period.




                                                                                               Office of Inspections and Evaluations   15
Office of Counter-Terrorism and
Intelligence
                                                                        uated for vulnerabilities and detailed recommendations are to be
                                                                        formulated to improve the security preparedness of the stations.
                                                                        During this reporting period, the OIG continued to facilitate
                                                                        implementation of the Ten Station Security Strategy. The OIG
                                                                        procured funding and coordinated the development of security
                                                                        support product packages at these sites. The OIG provided tech-
                                                                        nical reviews and facilitated stakeholder outreach initiatives
                                                                        described here.
                                                                        !   Station Action Team (SAT)
                                                                            The CT&I continued to assist the Washington Union Station
                                                                            (WUS) Station Action Team. The SAT is intended to provide
                                                                            an informal organization where stakeholders can discuss crisis
                                                                            and risk management, incident response, emergency prepared-
                                                                            ness, and risk mitigation. The SAT model being used in
                                                                            Washington, DC, will be used as a base model for the other
                                                                            designated stations in the Ten Station Strategy (10SS).

Union Station | Washington, DC                                          !   Homeland Defense Operational Systems (HOPS)
                                                                            The OIG arranged for the services of the Lawrence Livermore
                                                                            National Laboratory (LLNL) HOPS program to undertake a
The OIG Counter-Terrorism and Intelligence (CT&I) unit is                   scientific assessment of critical vulnerabilities at two major
responsible for the oversight of Amtrak’s rail security, emer-              stations. These assessments will provide important decision
gency preparedness, and related counter-terrorism and                       support tools to managers charged with mitigating vulnerabili-
intelligence efforts. Working with other entities within the                ties at these important shared facilities. Based on the successful
Amtrak security program, this unit works to increase awareness              execution of previous studies, CT&I will facilitate HOPS
about the possibilities of terrorist attack against passenger rail          assessments other major Amtrak facilities across the nation.
services, and the critical importance of security preparedness and
risk mitigation. During this reporting period, we have under-           !   Virtual Digital Mapping Project for Critical Infrastructure
taken various security oversight and outreach activities some of            The OIG continued to provide administrative and tactical
which are highlighted below.                                                support to obtain virtual, digital mapping of major Amtrak
                                                                            stations. This product provides first responders and security
Given the highly confidential nature of this unit, its activities and       planners with a contingency planning tool, useful during both
progress is generally not publicized. OIG is willing to discuss             pre-incident drills and during and post-incident emergency
projects and highlights with Congressional members and staff.               preparedness operations.
                                                                        !   Other Security Reviews
SIGNIFICANT COUNTER-TERRORISM                                               During this reporting period, the OIG sponsored the vulnera-
AND INTELLIGENCE EFFORTS                                                    bility assessment of a major metropolitan station using a
                                                                            nationally recognized team of crisis management experts.
                                                                            The Full Spectrum Infrastructure Vulnerability Assessment
TEN STATION STRATEGY (10SS) – ASSESSING SECU-
                                                                            (FSIVA) team from the California National Guard undertook
RITY AT MAJOR URBAN STATIONS                                                a comprehensive review of security and evacuation plans.
The OIG has developed a security assessment program whereby
the ten major stations in Amtrak’s national system are to be eval-




16    Office of Counter-Terrorism and Intelligence
                                                                     Other OIG Activities
COORDINATION WITH INDEPENDENT                                         work environment, trained all audit staff, and rolled out the
                                                                      TeamMate application to all audit offices across the country. All
PUBLIC ACCOUNTANTS                                                    new audits will use the TeamMate.
Section 805 of the Rail Passenger Service Act of 1970 requires        Currently,    the    OIG      is    planning      to     implement
Amtrak to have its financial statements audited annually in           PricewaterhouseCoopers Global Best Practices (GBP) in our
accordance with the generally accepted auditing standards, and        TeamMate environment. GBP provides continuously updated
to report the audit findings to Congress in Amtrak’s annual           best practices and benchmarking information for standardized
report. Amtrak has been audited annually since 1971.                  business processes. This enhancement will assist us in
At the request of the Finance Department and KPMG, the OIG            performing audits and making value-added recommendations to
conducted a review of fiscal year 2006 labor charges for both the     management. In addition, we plan to implement additional
Engineering and Mechanical departments. The review consisted          TeamMate modules, initiate development of the OIG intranet, and
of analyzing the entire population of labor charges for both          extend the secure subnet access and capabilities to all OIG groups.
departments in order to determine the amounts adjusted and
assess the risk that the labor cost adjustments may be inappro-
priate. The results of our review indicated a normal trend of a
                                                                      AMTRAK IT CHALLENGES AND
small number of adjustments and a relatively low dollar value for     GROUPS ANALYSIS
each date of adjustment. We concluded that the risk of inappro-       To assist the new CIO the OIG prepared a high-level overview of
priate changes was very low and informed KPMG on the results          the Amtrak IT environment and identified key challenges, such
of our review.                                                        as organization and reporting structure; IT strategic planning;
As part of the annual audit process, the OIG informs the external     outsourcing and vendor management; speed and quality of
auditors on the scope of the ongoing audit activities being           management information; ERP and legacy application portfolio
conducted by the OIG, and continues to coordinate significant         management; system development methodology; e-ticketing;
audit issues with Amtrak management and the external auditors,        disaster recovery and business continuity; information security;
as necessary.                                                         network management; and e-commerce.
                                                                      Amtrak spends about $275 million per year on IT with a total
TEAMMATE IMPLEMENTATION                                               manpower of about 760 consisting of about 440 employees and
                                                                      320 contractors. The analysis showed that over $100 million of
                                                                      the $275 million in IT spend is controlled by departments other
OIG SECURE SUBNET AND TEAMMATE                                        than the Amtrak IT department. This organizational misalign-
IMPLEMENTATION                                                        ment results in disjointed development efforts, inefficient use of
As previously reported, the Amtrak OIG selected the TeamMate          funds and difficulty in implementing enterprise applications and
application for electronic workpapers and automation of various       data integration. The OIG work to date is helping the CIO, and
audit processes. In order to protect the confidentiality and chain    other senior managers, in forming a basis for company-wide IT
of custody of OIG information, a secure subnet with internal          restructuring and Enterprise Systems Strategy development. We
firewalls was built to host the TeamMate application and related      will report on the work of the CIO in our next Semiannual Report.
databases.
During this semiannual period, we fully implemented the tech-
nical infrastructure, finalized the TeamMate protocol and
library, revised paper-based audit procedures for the electronic




                                                                                                               Other OIG Activities   17
NATIONAL RAILROAD PASSENGER CORPORATION

                              Office of the Inspector General




                                                                Appendices
Appendix 1
 INSPECTOR GENERAL AUDIT REPORTS ISSUED WITH QUESTIONED COSTS
 10/1/06 – 3/31/07
                                                   Number   Questioned Costs   Unsupported Costs
 A. For which no management decision
    has been made by the commencement
    of the reporting period.                         2          $746,392            $290,276
 B. Reports issued during the
    reporting period.                                3        $1,106,993                   $0

 Subtotals (A + B)                                   5        $1,853,385            $290,276

 LESS
 C. For which a management decision
    was made during the reporting period.            3
     (i) dollar value of recommendations
         that were agreed to by management.                     $982,110               $3,817
     (ii) dollar value of recommendations
          that were not agreed to by management.                                       $9,111

 D. For which no management decision
    has been made by the end of the
    reporting period.                                2          $871,275            $277,348




20   Appendix 1
                                                          Appendix 2
INSPECTOR GENERAL AUDIT REPORTS ISSUED WITH FUNDS TO BE PUT TO
BETTER USE
10/1/06 – 3/31/07
                                                 Number        Dollar Value
A. For which no management decision
   has been made by the commencement
   of the reporting period.                        0                   $0
B. Reports issued during the
   reporting period.                               0                   $0

Subtotals (A+B)                                    0                   $0

LESS
C. For which a management decision
   was made during the reporting period.           0                   $0
   (i) dollar value of recommendations
       that were agreed to by management.                              $0
   (ii) dollar value of recommendations
        that were not agreed to by management.                         $0

D. For which no management decision
   has been made by the end of the
   reporting period.                               0                   $0




                                                                 Appendix 2   21
Appendix 3
 OFFICE OF THE INSPECTOR GENERAL DETAILED LISTING
 OF ALL ISSUED AUDIT REPORTS
 10/1/06 – 3/31/07
 Date                Report                                                 Questioned   Unsupported   Funds to be Put
 Issued              Number     Report Title                                     Costs         Costs     to Better Use
 01/12/2007          103-2006   United Way Campaign Process Review                 $0            $0                $0

 12/19/2006          109-2005   Mechanical Capital Projects Labor Charge           $0            $0                $0

 12/22/2006          201-2007   Cycle Inventory Review                             $0            $0                $0

 03/26/2007          202-2007   Tri Rail Maintenance &                             $0            $0                $0
                                Operation Insourcing Bids

 03/30/2007          203-2007   Sale and Disposal of Equipment                     $0            $0                $0

 01/30/2007          204-2006   New England Division Conductor/Flagman       $740,148            $0                $0

 01/30/2007          205-2006   Amtrak/FRA Grant Compliance Reporting              $0            $0                $0

 03/30/2007          209-2006   LSA Remittances                                    $0            $0                $0

 01/24/2007          215-2006   NECMSC Inventory                             $222,186            $0                $0

 02/28/2007          216-2006   Gent’s Enterprise, Inc. Lease Audit                $0            $0                $0

 02/16/2007          218-2006   Observation of FY06 Annual M/W Inventory           $0            $0                $0

 12/22/2006          220-2006   Pittsburgh Station Review                          $0            $0                $0

 11/21/2006          300-2004   Compliance with Training Requirements              $0            $0                $0

 01/09/2007          302-2006   Emergency Exchange Vouchers South Station          $0            $0                $0

 03/07/2007          407-2004   Union Pacific Railroad                       $144,659            $0                $0

 Total (15)                                                                 $1,106,993           $0                $0




22   Appendix 3
                                            Appendix 4
OFFICE OF THE INSPECTOR GENERAL
SUMMARY OF REPORTS TO PRESIDENT OF AMTRAK
CONCERNING INFORMATION OR ASSISTANCE
UNREASONABLY REFUSED OR NOT PROVIDED
10/1/06 – 3/31/07

NONE




                                                  Appendix 4   23
Appendix 5
 OFFICE OF THE INSPECTOR GENERAL
 REVIEW OF LEGISLATION AND REGULATIONS
 10/1/06 – 3/31/07
 Section 4(a) of the Inspector General Act of 1978, as amended, provides that the Inspector General shall …review existing and proposed
 legislation and regulations relating to programs and operations of such establishment and to make recommendations in the semiannual reports
 … concerning the impact of such legislation or regulations on the economy and efficiency in the administration of such programs and opera-
 tions administered or financed by such establishment or the prevention and detection of fraud and abuse in such programs and operations.
 The Office of Inspector General has an agreement with Amtrak’s Government and Public Affairs Department that allows the OIG to review
 and comment on the company’s annual legislative program and other legislative and regulatory concerns of the company. Existing legislation
 and regulations are reviewed as necessary, as a part of every audit and investigation.
 The OIG has also submitted legislative recommendations to oversight and appropriating committees seeking line item funding and several
 other legislative changes that will strengthen OIG independence and effectiveness.
 The Inspector General testified before the Department of Homeland Security with regard to pending security legislation on February 13,
 2007. Additional testimony was provided before the House Transportation and Infrastructure Committee, on March 7, 2007, with regard to
 security legislation being advanced by that Committee.




24   Appendix 5
                                                                                                   Appendix 6
GLOSSARY OF AUDIT TERMS AND ABBREVIATIONS
The terms we use in reporting audit statistics are defined below:
Questioned Cost                     A cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an alleged
                                    violation of Amtrak’s corporate policy or procedure.
Unsupported Cost                    A cost that is not supported by adequate documentation at the time of the audit.
Funds To Be Put To Better Use       Funds identified in an audit that could be used more effectively by taking greater efficiency measures.
Management Decision                 Management’s evaluation of our audit finding and its final decision concerning agreement or non-
                                    agreement with our recommendation.

Certain abbreviations used in the text are defined below:
10SS       10 Station Strategy                                         IA            Internal Affairs (Amtrak Police)
APD        Amtrak Police Department                                    IT            Information Technology
CFR        Code of Federal Regulation                                  LLNL          Lawrence Livermore National Laboratory
CIO        Chief Information Officer                                   LSA           Lead Service Attendant
CSXT       CSX Corporation                                             MARC          Maryland Area Rapid Commuter
CT&I       Counter Terrorism and Intelligence                          NEC           Northeast Corridor
EEV        Emergency Exchange Voucher                                  OBS           On-Board Services
eTrax      Electronic Transaction Express Software System              OIG           Office of Inspector General
T&A        Time and Attendance                                         Pcard         Procurement card
FBI        Federal Bureau of Investigation                             RCM           Reliability Centered Management
FRA        Federal Railroad Administration                             RPU           Revenue Protection Unit
FSIVA      Full Spectrum Vulnerability Assessment                      SAT           Station Action Team
GBP        PricewaterhouseCoopers Global Best Practices                UP            Union Pacific Railroad
HHP        High Horse Power locomotives                                WUS           Washington Union Station
HOPS       Homeland Defense Operational System
HR         Human Resources
HUD        Housing and Urban Development




                                                                                                                             Appendix 6       25
Reporting Requirements Index
 INDEX OF REPORTING REQUIREMENTS PURSUANT
 TO THE INSPECTOR GENERAL ACT AMENDMENTS OF 1988
 Topic                              Reporting Requirements                                                             Page
 Section 4(a)(2)                    Review of Legislation and Regulations                                                24
 Section 5(a)(1)                    Significant Problems, Abuses, and Deficiencies                          5-7, 9-12, 14-16
 Section 5(a)(2)                    Recommendations for Corrective Action to Significant Problems           5-7, 9-12, 14-16
 Section 5(a)(3)                    Previous Reports’ Recommendations for Which Corrective Action
                                    Has Not Been Completed                                                                7
 Section 5(a)(4)                    Matters Referred to Prosecutive Authorities                                          13
 Section 5(a)(5)                    Information or Assistance Refused or Not Provided                                    23
 Section 5(a)(6)                    Audit Reports Issued in This Reporting Period                                        22
 Section 5(a)(7)                    Summary of Significant Reports                                          5-7, 9-12, 14-16
 Section 5(a)(8)                    Audit Reports with Questioned Costs                                                  20
 Section 5(a)(9)                    Audit Reports with Recommendations That Funds Be Put to Better Use                   20
 Section 5(a)(10)                   Previous Audit Reports Issued with No Management Decision Made by
                                    End of This Reporting Period                                                          7
 Section 5(a)(11)                   Significant Revised Management Decisions                                              7
 Section 5(a)(12)                   Significant Management Decisions with Which the IG is in Disagreement                 7




26   Reporting Requirements Index
Stop Fraud, Waste, Mismanagement, and Abuse

Who pays? You pay. Act like it’s your money… it is!
Tell Us About It
Maybe you are aware of fraud, waste, mismanagement, or some other type of abuse at Amtrak.
Amtrak’s Office of Inspector General has a toll free hotline number for you to call. You can also write to us.
We will keep your identity confidential. If you prefer, you can remain anonymous. You are protected by law from reprisal by your employer.

Call the hotline:
Nationwide             (800) 468-5469
Philadelphia           (215) 349-3065
                       ATS 728-3065

Write to us:
Inspector General
P.O. Box 76654
Washington, DC 20013-6654




National Railroad Passenger Corporation
Office of Inspector General
(800) 468-5469
       National Railroad Passenger Corporation
                 Office of the Inspector General
10 G Street, NE, Suite 3W-300, NE, Washington, DC 20002-4285



         Amtrak is a registered service mark of the National Railroad Passenger Corporation.
